<html>
<title> - PROMOTING INCLUSION: EXAMINING THE NEED FOR DIVERSITY PRACTICES FOR AMERICA'S CHANGING WORKFORCE</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]





 
                   PROMOTING INCLUSION: EXAMINING THE

                    NEED FOR DIVERSITY PRACTICES FOR

                      AMERICA'S CHANGING WORKFORCE

=======================================================================

                                HEARING

                               BEFORE THE

                       SUBCOMMITTEE ON DIVERSITY

                             AND INCLUSION

                                 OF THE

                    COMMITTEE ON FINANCIAL SERVICES

                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 17, 2019

                               __________

       Printed for the use of the Committee on Financial Services

                           Serial No. 116-59
                           
                           
                           
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                



                           ______                      


             U.S. GOVERNMENT PUBLISHING OFFICE 
42-362 PDF           WASHINGTON : 2020 
                          
                           
                           

                 HOUSE COMMITTEE ON FINANCIAL SERVICES

                 MAXINE WATERS, California, Chairwoman

CAROLYN B. MALONEY, New York         PATRICK McHENRY, North Carolina, 
NYDIA M. VELAZQUEZ, New York             Ranking Member
BRAD SHERMAN, California             ANN WAGNER, Missouri
GREGORY W. MEEKS, New York           PETER T. KING, New York
WM. LACY CLAY, Missouri              FRANK D. LUCAS, Oklahoma
DAVID SCOTT, Georgia                 BILL POSEY, Florida
AL GREEN, Texas                      BLAINE LUETKEMEYER, Missouri
EMANUEL CLEAVER, Missouri            BILL HUIZENGA, Michigan
ED PERLMUTTER, Colorado              STEVE STIVERS, Ohio
JIM A. HIMES, Connecticut            ANDY BARR, Kentucky
BILL FOSTER, Illinois                SCOTT TIPTON, Colorado
JOYCE BEATTY, Ohio                   ROGER WILLIAMS, Texas
DENNY HECK, Washington               FRENCH HILL, Arkansas
JUAN VARGAS, California              TOM EMMER, Minnesota
JOSH GOTTHEIMER, New Jersey          LEE M. ZELDIN, New York
VICENTE GONZALEZ, Texas              BARRY LOUDERMILK, Georgia
AL LAWSON, Florida                   ALEXANDER X. MOONEY, West Virginia
MICHAEL SAN NICOLAS, Guam            WARREN DAVIDSON, Ohio
RASHIDA TLAIB, Michigan              TED BUDD, North Carolina
KATIE PORTER, California             DAVID KUSTOFF, Tennessee
CINDY AXNE, Iowa                     TREY HOLLINGSWORTH, Indiana
SEAN CASTEN, Illinois                ANTHONY GONZALEZ, Ohio
AYANNA PRESSLEY, Massachusetts       JOHN ROSE, Tennessee
BEN McADAMS, Utah                    BRYAN STEIL, Wisconsin
ALEXANDRIA OCASIO-CORTEZ, New York   LANCE GOODEN, Texas
JENNIFER WEXTON, Virginia            DENVER RIGGLEMAN, Virginia
STEPHEN F. LYNCH, Massachusetts      WILLIAM TIMMONS, South Carolina
TULSI GABBARD, Hawaii
ALMA ADAMS, North Carolina
MADELEINE DEAN, Pennsylvania
JESUS ``CHUY'' GARCIA, Illinois
SYLVIA GARCIA, Texas
DEAN PHILLIPS, Minnesota

                   Charla Ouertatani, Staff Director
                Subcommittee on Diversity and Inclusion

                     JOYCE BEATTY, Ohio, Chairwoman

WM. LACY CLAY, Missouri              ANN WAGNER, Missouri, Ranking 
AL GREEN, Texas                          Member
JOSH GOTTHEIMER, New Jersey          FRANK D. LUCAS, Oklahoma
VICENTE GONZALEZ, Texas              ALEXANDER X. MOONEY, West Virginia
AL LAWSON, Florida                   TED BUDD, North Carolina
AYANNA PRESSLEY, Massachusetts       DAVID KUSTOFF, Tennessee
TULSI GABBARD, Hawaii                TREY HOLLINGSWORTH, Indiana
ALMA ADAMS, North Carolina           ANTHONY GONZALEZ, Ohio, Vice 
MADELEINE DEAN, Pennsylvania             Ranking Member
SYLVIA GARCIA, Texas                 BRYAN STEIL, Wisconsin
DEAN PHILLIPS, Minnesota             LANCE GOODEN, Texas

                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on:
    October 17, 2019.............................................     1
Appendix:
    October 17, 2019.............................................    27

                               WITNESSES
                       Thursday, October 17, 2019

Graves, Rod, Executive Director, Fritz Pollard Alliance 
  Foundation.....................................................     9
Guinyard, Bernard, Director, Diversity and Inclusion, Goodwin....     4
Mota, Patricia, President and CEO, Hispanic Alliance for Career 
  Enhancement....................................................     7
Sherbin, Laura, Vice President, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="551620392120273015023a273e7b7b7b7b7b7b7b7b7b7b7b7b7b7b7b7b7b7b7b7b7b">[email&#160;protected]</a>    10
Tulshyan, Ruchika, Diversity and Inclusion Strategist and Author.     5

                                APPENDIX

Prepared statements:
    Graves, Rod..................................................    28
    Guinyard, Bernard............................................    33
    Mota, Patricia...............................................    39
    Sherbin, Laura...............................................    42
    Tulshyan, Ruchika............................................    45

              Additional Material Submitted for the Record

Wagner, Hon. Ann:
    Written statement of Diverse & Engaged.......................    48
    Written report of McKinsey & Company and LeanIn.Org entitled, 
      ``Women in the Workplace, 2019''...........................    51


                   PROMOTING INCLUSION: EXAMINING THE

                   NEED FOR DIVERSITY PRACTICES FOR

                      AMERICA'S CHANGING WORKFORCE

                              ----------                              


                       Thursday, October 17, 2019

             U.S. House of Representatives,
                          Subcommittee on Diversity
                                     and Inclusion,
                           Committee on Financial Services,
                                                   Washington, D.C.
    The subcommittee met, pursuant to notice, at 3:20 p.m., in 
room 2128, Rayburn House Office Building, Hon. Joyce Beatty 
[chairwoman of the subcommittee] presiding.
    Members present: Representatives Beatty, Green, Gottheimer, 
Pressley, Adams, Dean, Garcia of Texas; Wagner, Lucas, Mooney, 
Kustoff, Hollingsworth, Gonzalez of Ohio, and Gooden.
    Ex officio present: Representatives Waters and McHenry.
    Chairwoman Beatty. The Subcommittee on Diversity and 
Inclusion will come to order. Without objection, the Chair is 
authorized to declare a recess of the subcommittee at any time. 
Also, without objection, members of the full Financial Services 
Committee who are not members of this subcommittee are 
authorized to participate in today's hearing.
    Today's hearing is entitled, ``Promoting Inclusion: 
Examining the Need for Diversity Practices for America's 
Changing Workforce.''
    I now recognize myself for 4 minutes to give an opening 
statement. Today's hearing seeks to focus solely on retention 
and promotion of diverse talent. We cannot just focus on 
recruitment, which we already know is subpar sometimes. Too 
often, organizations place such a heavy emphasis on pipeline 
development that retention aspects to diversity and inclusion 
practices are often neglected. Research shows that many 
business leaders, primarily white heterosexual males, 
underestimate the challenges that diverse employees face in 
moving up the ladder in the workforce.
    In 2019, we have ongoing evidence from the data of 
diversity request that this subcommittee made to the top 
megabanks of the country on the financial services industry 
demonstrating that women and people of color are woefully 
underrepresented and unrepresented in leadership positions. 
Even more so in 2018, the women in the workplace survey 
conducted by McKinsey & Company showed that for every 100 men 
promoted to manager, only--I want you to hear this--only 60 
Black women were promoted.
    We know from our previous hearings on the business case for 
diversity, that the lack of women and people of color in 
leadership positions will reduce a company's ability to: one, 
provide depth of consumer insight; two, capture new markets; 
and three, yield greater financial returns, which will 
eventually take a significant financial and competitive toll on 
organizations. Strategy such as fair pathways to promotion 
along with unconscious bias training and sponsorship programs 
are tried-and-true resources for women to navigate advancement 
barriers to their own career development.
    According to the 2019 Boston Consulting Group report, when 
companies were asked about diversity obstacles in the 
workplace, nearly half of the companies responded that they 
lacked the appropriate mechanism to track promotions and to 
ensure that major project assignments are bias-free. As we 
examine the diversity practices of America's workforce, it is 
clear from our hearings and data collections that we can do 
better. We need to identify, to discuss, and to implement 
accountability metrics and strategic intervention so that 
companies and government agencies deliver real results.
    It is our hope that our expert witnesses today will share 
best practices that, if implemented, could help organizations 
retain diverse employees and promote them to the highest 
organizational levels.
    Due to the foreseeable changes in American society, 
according to the United States Census Bureau, the population of 
the United States will be majority/minority, meaning women and 
minorities will comprise 47 percent and 27 percent of the 
workforce respectively. Therefore, it will be incumbent on all 
of our leaders to embrace the changing demographics by 
establishing a culture that yields the best economic outcome 
and the most competitive advantage.
    With that, I would like to ask unanimous consent to add the 
following report from PricewaterhouseCoopers entitled, 
``Mending the Gender Gap: Advancing Tomorrow's Women Leaders in 
Financial Services,'' into the record. Without objection, it is 
so ordered.
    I reserve the balance of my time for the Chair of the full 
Financial Services Committee, Chairwoman Maxine Waters. The 
Chair now recognizes the ranking member of the subcommittee, 
the gentlewoman from Missouri, Mrs. Wagner, for 4 minutes for 
an opening statement.
    Mrs. Wagner. Thank you, Madam Chairwoman. First of all, I 
thank our witnesses for testifying before this subcommittee 
today. And I look forward to hearing from all of you and 
learning more about the most successful strategies for changing 
workplace cultures within the financial services industry.
    Over the past 9 months, this subcommittee has spent our 
time seeking to ensure that the financial industry, along with 
frankly many other sectors of the U.S. economy, is reaping the 
benefits of our country's diversity. Research shows that 
companies with more diverse workforces outperform their less 
diverse competitors. Diversity builds collective intelligence 
by helping teams remain more objective, process information 
more carefully, and even price stocks more accurately.
    In mid-August, Morgan Stanley issued a report demonstrating 
that gender-diverse firms tend to outperform their less diverse 
peers globally. Morgan Stanley's new study identified that 
firms that prioritize equal representation receive a boost of 
up to 2.8 percent in average returns annually, which translates 
into a sizable sum if you are a firm as large as say, Walmart 
or Apple. Diversity and inclusion are separate issues that must 
be addressed.
    In an article published in the Harvard Business Review 
entitled, ``Diversity Doesn't Stick Without Inclusion,'' by one 
of our witnesses today, Dr. Sherbin--and I look forward to your 
testimony in a bit--she states that part of the problem is that 
diversity and inclusion are so often lumped together that they 
are assumed to be the same thing, but that is just not the 
case. In the context of the workplace, diversity equals 
representation, and without inclusion, the crucial connections 
that attract diverse talent, foster innovation, and lead to the 
kind of business growth that I was outlining won't happen.
    Dr. Sherbin, I could not agree more with your sentiment. It 
is one thing to hire diverse talent, but in order to reap the 
benefits of a diverse workforce, there must be inclusion. We 
have heard from previous witnesses in the subcommittee about 
best practices that foster inclusion such as sponsorship and 
mentorship, employees' resource groups, and diversity councils. 
I look forward to discovering more today.
    Although a company may be able to increase recruitment, it 
is equally as important to focus efforts on making sure the 
environment is inclusive for retention. More can be done in 
both areas, but it is encouraging to see corporations 
throughout the industry proactively taking on the mission to 
improve diversity and inclusion for their workforces. The 
progress has been slow, and more can always be done, but good 
work is being accomplished.
    The best practices that we are going to hear about today 
can be held up as examples throughout the sector and used as 
starting blocks for others in the industry to increase 
diversity and inclusion.
    I thank you, Madam Chairwoman, for this hearing today, and 
I would like to reserve the balance of my time for the ranking 
member of the Full Committee, Mr. McHenry, when he arrives. 
Thank you. I yield back.
    Chairwoman Beatty. Today, we welcome the testimony of a 
very diverse and distinguished panel of five witnesses. Thank 
you all for being here.
    First, we welcome the testimony of Bernard Guinyard, the 
director of diversity and inclusion at Goodwin. He implements 
programs that embed diversity and inclusion practices into the 
fabric of the firm's culture, systems, and processes, which 
positively impacts the employees' experiences. He is also a 
board member of the Association of Law Firm Diversity 
Professionals.
    Second, Ruchika Tulshyan is a leading diversity and 
inclusion strategist, and founder of Candour. She writes 
regularly for publications including the Harvard Business 
Review, Forbes, and the Seattle Times. Her articles have 
appeared in The Wall Street Journal, Time, and Bloomberg. She 
is also the inaugural distinguished professional-in-residence 
for the Communication Department at Seattle University.
    Third, Patricia Mota is the president and CEO of the 
Hispanic Alliance for Career Enhancement. She has a strong 
history of serving the Latino community, as reflected by her 
service on various not-for-profit boards and committees, most 
recently serving as a board member on the Illinois Treasurer 
Latino Advisory Council and the Indiana University Latino 
Alumni Association Board.
    Fourth, Rod Graves is the executive director of the Fritz 
Pollard Alliance Foundation. His experience spans over 37 
years, including as senior vice president of football 
administration for the New York Jets of the National Football 
League, and as general manager of the Arizona Cardinals.
    And finally, Dr. Laura Sherbin is the vice president of 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="cd8eb8a1b9b8bfa88d9aa2bfa6e3">[email&#160;protected]</a> She is an economist who specializes in the 
creation of advantage through inclusion and diversity. Most 
recently, she was co-president at the Center for Talent 
Innovation in New York City, a premier think tank and content 
provider that studies global workplace diversity.
    The witnesses are reminded that their oral testimony will 
be limited to 5 minutes. And without objection, your written 
statements will be made a part of the record.
    The witnesses are also reminded to turn their microphones 
on and to abide by the three lights in front of you: green 
means go; yellow means wrap it up; and red means stop.
    Mr. Guinyard, you are now recognized for 5 minutes to give 
an oral presentation of your testimony.

    STATEMENT OF BERNARD GUINYARD, DIRECTOR, DIVERSITY AND 
                       INCLUSION, GOODWIN

    Mr. Guinyard. Thank you, Chairwoman Beatty. At Goodwin, we 
are committed to promoting diversity within our firm and in the 
legal profession, and also fostering an inclusive environment 
in which each attorney and professional can excel and thrive. 
Diversity and inclusion are our core values at Goodwin and we 
believe that makes us stronger as a firm, as a provider of 
legal services, and as an employer. It is also a matter of 
justice for us. We believe that equity demands a diverse 
workforce in the legal profession, and we have a lengthy track 
record of enabling equal access to legal systems through our 
pro bono efforts and our broad non-discrimination policies.
    <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="30795e535c4543595f5e70775f5f5447595e">[email&#160;protected]</a>, which was established in 2014 and is led 
by our firm's Chairman Emeritus David Hashmall, drives the 
firm's diversity and inclusion strategic initiatives. Some of 
our core efforts include bias disruption campaigns, inclusive 
leadership training and upward feedback for our leaders, 
sponsorship initiatives, and also practice group action plans. 
These strategies are complemented by the robust engagement of 
our affinity groups, which include our Committee on Racial and 
Ethnic Diversity, our Pride Initiative, and our Women's 
Initiative, all of which promote connectivity, networking, and 
advancement within our firm.
    At Goodwin, we recognize that despite significant 
commitment and our hard work, we need to work even smarter and 
faster on our diversity goals, focusing on development, 
retention, advancement, and leadership. To demonstrate our 
leadership in this area and our willingness to disrupt the 
status quo, we have elected to sign onto bold initiatives led 
by Diversity Lab. The first, the Mansfield Rule, is a law firm 
slate diversity initiative launched in 2017.
    The second, the Move The Needle Fund, is a collaborative 
effort designed and funded with $5 million to test innovative 
initiatives to create a more diverse and inclusive legal 
profession. Under the Mansfield Rule, law firms who are 
participating are expected to consider a diverse slate of 
candidates for influential and leadership roles within our 
organizations. We are also encouraged to create and post 
descriptions of these leadership roles to ensure that the 
processes and election and or appointment to these roles are 
transparent and accessible to all lawyers.
    As an example of the Mansfield Rule in action, if a firm's 
management committee has identified a short list of five 
candidates for an opening on its executive committee, under the 
Rule, at least two candidates must be a woman, an attorney of 
color, or LGBTQ+. Firms that consider diverse attorneys for 70 
percent or more of their leadership committees qualify for 
Mansfield certification.
    After successfully achieving Mansfield certification last 
year, the firm recently achieved Mansfield certification for a 
second time, and Diversity Lab also named us as Mansfield 
Certified Plus, being recognized for achievement of at least 30 
percent in our leadership ranks. Currently, Goodwin's most 
senior leadership committees are 35 percent diverse, which is a 
significant achievement for the firm and signals the progress 
we have been making ever since implementing the Rule.
    The second initiative, which has recently been launched, is 
a trailblazing effort which brings five law firms together to 
partner with Diversity Lab in a joint venture, which allows us 
to actually collaborate with each other but at the same time 
partner with 25 general counsels at influential companies to 
pursue bold, public, metric-based goals to be achieved within 5 
years.
    For us, we have chosen the following goals based on 
specific challenges we at Goodwin are trying to address. By 
January 2025, the diversity of the Goodwin senior associate 
population and its population of partners and equity partners 
elevated in the preceding 5 years will match or exceed its 
entry level associate diversity, which will be consistent with 
or greater than the diversity of graduating law student classes 
by gender, race, ethnicity, and LGBTQ+ identity.
    Additionally, the collective composition of all firm 
leadership committees will be at least 40 percent diverse. To 
achieve our goals, we are not only investing $1.25 million, but 
we will be testing out various initiatives. The benefits of 
signing up for such bold initiatives allows us to set bold 
goals, create transparency and accountability, garner 
significant investments, fuel innovation, and perhaps most 
importantly, enable opportunities for collaboration. Thank you.
    [The prepared statement of Mr. Guinyard can be found on 
page 33 of the appendix.]
    Chairwoman Beatty. Thank you. Next, Ms. Tulshyan, you are 
now recognized for 5 minutes to give an oral presentation of 
your testimony.

    STATEMENT OF RUCHIKA TULSHYAN, DIVERSITY AND INCLUSION 
                     STRATEGIST AND AUTHOR

    Ms. Tulshyan. Good afternoon. A special thank you to 
Chairwoman Beatty and the members of the subcommittee for 
inviting me to talk about this important issue of promoting 
inclusion in the workplace. I come here representing my views 
and mine alone as an immigrant woman of color and a working 
mother. I would like to focus on four key areas today where 
women--and I am centering on women of color in my testimony--
face barriers to retention and advancement at work with data 
backed to propose solutions.
    Multiple studies show women are graduating college at 
higher rates than men but remain severely underrepresented in 
leadership roles in America. We are forced to navigate 
workplaces designed without us in mind, despite ample evidence 
highlighting why harnessing diversity and inclusion in the 
workplace is key to American competitiveness, prosperity, and 
innovation.
    For women of color, the situation is dire. White women hold 
19 percent of C-suite positions, but women of color hold only 4 
percent. Research finds women of color face harmful stereotypes 
about our professional competence, leadership ability, and 
behavior. This data is extremely significant because by 2060, 
the majority of all women in the United States will be women of 
color.
    A Washington Post headline last month stated that for the 
first time, most new working-age hires in the United States are 
people of color. We simply cannot turn away from designing an 
equitable workforce. The demographics are changing in front of 
our very eyes. The first barrier is the challenge of working 
motherhood. It is a travesty that one in four American women go 
back to work within 10 days of giving birth. We are the only 
developed country in the world that does not guarantee paid 
maternity leave, so too many women have to make the 
heartbreaking choice between a paycheck and giving birth at 
work.
    At work, we face the motherhood penalty, where we are 
penalized by lower-paying job opportunities and even perceived 
competence for having children. And guess what, when men become 
dads, they receive a fatherhood bonus. No wonder 43 percent of 
working mothers leave the workforce in America. One research-
backed solution is to federally mandate paid family leave, not 
only for when a woman gives birth, but also for time off when a 
family member is sick, and offer it to mothers and fathers, so 
not only women are responsible for childcare.
    By the way, a study found that businesses save $19 billion 
annually by retaining female employees when they offer 16 weeks 
of fully-paid maternity leave. It is literally a win-win for 
businesses, families, and our society.
    Second, women need sponsors, we do not need more mentors. 
In fact, research shows we have more casual mentors at work 
than men. Sponsorship means having more leaders personally 
invested in our success who offer us the top jobs, the high-
visibility projects, and the insider knowledge that men often 
get informal access to on the golf course or at dinners that 
women are not invited to. Early pilots of sponsorship programs 
in some innovative companies have yielded positive results in 
the advancement of women.
    Third, we need office housework to be distributed 
equitably. ``Office housework'' refers to the unglamorous 
work--the meeting notes; ordering of lunches; mentoring of 
interns, etc.--that does not get recognized or lead to 
promotion. Office housework is disproportionately assigned to 
women and people of color. One study found that women do 30 
percent more of it than white men. We must ensure women don't 
get saddled with these tasks because they have a real and 
recognizable impact on their career advancement. In short, 
equitably distribute office housework.
    Fourth and most importantly, leaders must address their own 
personal biases and also actively champion equity. In writing 
my book, I found that across industries, organization size, and 
geography, companies that exhibited more gender equality than 
their peers all had only one trait in common: leadership buy-in 
for diversity. We must ensure our leaders of corporations and 
governments alike understand the unique barriers faced by 
professional women and people of color, and work actively to 
dismantle them.
    Advocacy efforts must be backed by well-resourced chief 
diversity offices, prioritizing inclusion so women can safely 
report harassment or bias without retaliation. Members of 
Congress, there is no issue we are facing today that doesn't 
impact underrepresented communities more acutely--climate 
change, immigration, violence, poverty, access to healthcare; 
the list is long, and you are well familiar with it.
    What type of innovative solutions could be designed if more 
women, especially women of color, were in leadership roles to 
tackle them? It is absolutely crucial for the future of the 
American democracy to prioritize championing women. Thank you.
    [The prepared statement of Ms. Tulshyan can be found on 
page 45 of the appendix.]
    Chairwoman Beatty. Thank you. Next, we have Ms. Patricia 
Mota. Ms. Mota, you are now recognized for 5 minutes to give an 
oral presentation of your testimony.

    STATEMENT OF PATRICIA MOTA, PRESIDENT AND CEO, HISPANIC 
                ALLIANCE FOR CAREER ENHANCEMENT

    Ms. Mota. Chairwoman Beatty, Ranking Member Wagner, and 
members of the subcommittee, thank you for the opportunity to 
share my testimony, and thank you to you and your staffs for 
your dedication to building a more inclusive workforce and 
society. I serve as an advocate for access and equity, 
personally fulfilling my mission to close the education and 
career gaps that I have personally faced and that many in our 
Black and Brown communities face.
    I serve as president and CEO for the Hispanic Alliance for 
Career Enhancement or HACE, a national nonprofit dedicated to 
the employment, development, and advancement of current and 
aspiring Latino professionals. Our mission is to positively 
impact the American workplace by cultivating the pipeline of 
talent and providing professionals the insight, access, and 
support to be successful in their careers.
    Since 1982, and with a network of over 64,000 members and 
90 corporate partners across the country, HACE works with 
employers to remain competitive in an increasingly dynamic 
economy by helping them attract, retain, and develop Latino 
talent. We carry out our mission through three core areas: one, 
talent acquisition programs, services, and opportunities where 
we actively connect talent with employers; two, pipeline and 
leadership development programs that cultivate, build, and 
develop the pipeline of Latino talent from high school level to 
the C-suite; and three, through leadership and branding events, 
roundtable discussions on diversity and inclusion best 
practices, and professional and employer's success stories and 
impact.
    HACE's vision to see a world where Latinos reach their full 
potential for themselves and for our communities that we serve 
feels a bit closer to reality when I witness our year-round 
programs and events. Yet, we are disproportionately 
underrepresented in highly-compensated professional and 
leadership roles across corporate America and other sectors. We 
are part of the youngest and the fastest-growing population 
group in the United States, and with an older and more diverse 
workforce, Latino's access to education, meaningful jobs, and 
advancement is critical for the economic progress of our 
country.
    Statistics show that impact of Latinos on the economy today 
and in the future. U.S. Latinos are the current and future 
workforce. In 2018, Latinos made up 29 million workers in the 
U.S., and by 2020, U.S. Latinos will make up 74 percent of the 
growth in new workers. U.S. Latinos are creating jobs. Within 
the last decade, 86 percent of all new businesses in the U.S. 
were launched by Latinos, with Latinas, women, creating 
businesses 6 times faster than any other group.
    U.S. Latinos are educated. More students are completing 
high school and college than ever before. High school dropout 
rates decreased from 34 percent in 1996 to 10 percent in 2016, 
and college enrollment increased from 35 percent to 47 percent 
in the same timeframe. Employers must focus on the promotion 
and retention of diverse talents in order to build a more 
inclusive workforce.
    At a former employer, I was told that I was not promoted to 
the next position, not because of my qualifications, but 
because the selection committee felt more comfortable with the 
other candidate. The other candidate was an older white male. 
The selection committee was all white. While this case was 
blatant, this is not uncommon where biases against race, 
gender, or age hinder someone's opportunity for career 
progression.
    My top three recommendations of many are first, to require 
bias-inclusive diversity training. Formal training can help 
identify some of the conscious and unconscious biases that 
reduce the negative effects in the workplace. Also, provide 
access to these trainings.
    Second, require a diverse slate of candidates for all 
positions, including top-level positions. Diverse leadership 
teams boost innovation and profits. According to the Boston 
Consulting Group, diverse leadership teams account for 45 
percent innovation growth versus 26 percent with below average 
diversity scores and 45 percent market share growth. Engaging 
and essentially partnering with organizations like HACE grants 
employers access to diverse talent.
    And third, supporting employee participation in affinity 
groups and leadership programs. Programs like HACE's women's 
leadership program, Mujeres de HACE, which empowers Latina 
professionals to succeed professionally and thrive personally, 
are key to moving the needle.
    The program is a cohort model, a safe space of 24 hours of 
culturally relevant training, coaching, leadership assessments, 
engagement of successful Latina role models and mentors, and 
sponsors who have effectively catapulted the careers of our 
alumnae: 40 percent have seen a promotion within less than 6 
months, and an additional 30 percent within less than 12 
months.
    In order to build a more inclusive and diverse workforce, 
today's employers must consistently, intentionally invest in 
these and several other practices over the long term. Thank 
you.
    [The prepared statement of Ms. Mota can be found on page 39 
of the appendix.]
    Chairwoman Beatty. Thank you very much. Next, we have Mr. 
Rod Graves. Mr. Graves, you are now recognized for 5 minutes to 
give an oral presentation on your testimony.

  STATEMENT OF ROD GRAVES, EXECUTIVE DIRECTOR, FRITZ POLLARD 
                      ALLIANCE FOUNDATION

    Mr. Graves. Chairwoman Beatty, thank you, and to the 
members, thank you for your work, and I certainly appreciate 
the opportunity to address you today. My name is Rod Graves, 
and I am the executive director of the Fritz Pollard Alliance 
(FPA). I joined the FPA in June of 2019 after serving 35 years 
in the National Football League. I also worked for 2 years in 
the United States Football League before joining the NFL. I 
have served in a number of executive and leadership roles.
    My career has been influenced by great personnel men like 
John Wooten, Tank Younger, Milt Davis, Charles Garcia, Bill 
Nunn, Dick Daniels, and Bill Tobin. Fritz Pollard is an 
advocacy group. We were co-founded in 2003 by the late Johnnie 
L. Cochran, Jr., and civil rights attorney Cyrus Mehri of Mehri 
& Skalet in Washington D.C. For the past 15 years, the group 
has been led by John Wooten, a former NFL player and team 
executive.
    Mr. Wooten's dedication to diversity and equal opportunity 
set the foundation for our organization. He retired in the 
spring of this year. Our members include coaches, scouts, front 
office personnel, and gameday officials. Our primary focus is 
on the men and women of color within the National Football 
League. Our mission is to champion diversity in the NFL through 
education, and to provide our members with resources that will 
help them to succeed at every level of the game.
    Our vision is to see diversity of leadership in the 
business plan of every sports team. We believe that diversity 
is good for the game. The Rooney Rule originated with the Fritz 
Pollard Alliance. The Rule, named after the late Dan Rooney, 
owner of the Pittsburgh Steelers, requires NFL teams in search 
of a head coach and general manager to interview multiple 
diverse candidates. Enforcement rests with the NFL 
Commissioner.
    The efforts behind the Rooney Rule have been extremely 
successful. The Rule has produced a record number of minority 
head coaches and general managers, and that has built up 
pipelines of talent around the league. We have also seen the 
Rule adopted by corporations such as Xerox, Intel, Facebook, 
Microsoft, Goldman Sachs, and others. The Rooney Rule has 
impacted both my personal and professional success. In 2004, 
Bill Bidwill, owner of the Arizona Cardinals, hired Dennis 
Green as the organization's first African-American head coach, 
and made me general manager. We were the first Black GM/head 
coach combination in NFL history.
    As a team executive, I participated in the hiring of 
several head coaches, coordinators, and other football 
executives. The exposure that my organization and I gained to 
diverse candidates as a result of the Rooney Rule was 
invaluable. The Rooney Rule benefits diverse candidates as 
well. The exposure gained by the diverse candidates during an 
interview process helps them to be better-prepared, and to be 
more informed about the industry and the organizations that 
they are seeking to join.
    What we have learned over the years about the Rooney Rule 
and the other equal opportunity initiatives developed in the 
NFL is that alone, they do not guarantee positive outcomes for 
diversity. Sustained success requires a commitment by those 
making the decisions. We have seen that commitment by a number 
of NFL teams. It is most apparent which teams have shown a 
commitment to diversity of leadership and have created a D&I 
strategy for their entire organization. Our goal is to work 
with the NFL to expand this approach and to embrace diversity 
as good and right for the game. Thank you.
    [The prepared statement of Mr. Graves can be found on page 
28 of the appendix.]
    Chairwoman Beatty. Thank you very much. Dr. Sherbin, you 
are now recognized for 5 minutes to give an oral presentation 
of your testimony.

    STATEMENT OF LAURA SHERBIN, VICE PRESIDENT, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="793a2c352d2c2b3c392e362b32">[email&#160;protected]</a>

    Ms. Sherbin. Thank you, Chairwoman Beatty, Ranking Member 
Wagner, and members of the subcommittee, not just for the 
invitation to come today, but also for your time and attention 
to this very important agenda. Time is our scarcest resource, 
and it is reflective of the importance of the mission that we 
all come here today to solve, that we are all taking the time.
    As you may know, I have done a great deal of research on 
this topic, and have had the opportunity to partner with many 
companies to help them achieve the goal that we are talking 
about today. I believe it is a core responsibility of leading 
companies and also of government to ensure that one of the 
nation's greatest assets, our talent pool, is fully engaged to 
its greatest potential for the benefit of individuals, the 
benefit of companies, and the benefit of our collective Union.
    Even as women are achieving degrees in record numbers, as 
we all know, there are no women running major financial 
services companies. Fewer than one in five have these roles, 
according to the recent McKinsey & Company report. The concrete 
ceiling remains firmly in place. And I know it is not for lack 
of effort. I have been on the front lines with many of these 
companies. Financial services companies were among the first to 
embrace the cultivation of greater gender diversity, and 90 
percent of them today say they are committed to it.
    Despite decades of effort, the financial services sector's 
gender equality movement has not made the necessary gains. Why? 
Diversity focus tactics, as we have discussed, don't work 
without an effort to create a truly inclusive culture that not 
only attracts women but makes them feel valued and welcomed. 
Diversity is being asked to attend the party. Inclusion is 
being asked to dance. To truly change the ratios of women and 
other marginalized groups in power, it is important to first 
look at the factors that cause the gap and then devise 
solutions to overcome them.
    The first very critical factor is the value proposition of 
the industry. Financial services careers are known for offering 
lucrative salaries and benefits packages in exchange for high-
demand careers, but long hours, extensive travel, and personal 
sacrifices make these roles often unsustainable not just for 
women with children, but also to anyone with caregiving 
responsibilities.
    Relationship capital is the second area. This goes beyond 
just mentors and sponsors. Relationships make or break a 
career. It takes a village to raise a family, we all know that, 
but it takes a village to advance your career in any industry 
and to advance your personal agenda. According to Working 
Mother Media research, women are considerably less likely than 
men to receive advice on how to advance and to be invited to 
the very critical tables. We also find that there are hidden 
off-ramps within, especially, the financial services sectors. 
Because the networks are notoriously closed, many women don't 
get the critical opportunities to position themselves for 
success. This includes P&L experience, but it stretches all the 
way to development opportunities that ultimately lead to 
promotions and pay raises.
    And we all know that bias still undercuts opportunity in 
this industry. What it will take is a secure commitment and 
modeling from leaders. Any culture shift needs to start with 
the support and participation of leadership. Leaders need to be 
visible in their participation to make sure it happens, and to 
articulate its importance. Diversity, I believe, is a business 
problem, and needs to be treated as such. We also need to 
ensure that we are measuring what matters and focusing on 
accountability, conducting regular pay equity audits, and 
ensuring that employees are being paid fairly for equal work.
    Track not just the lagging indicators of diversity, the 
representation, the level, and turnover, but also the leading 
indicators of inclusion leader behaviors, candidate access to 
stretch and development opportunities, and perception of bias 
within the system, because when it comes to bias, perception is 
reality. By treating diversity and inclusion like the business 
problem it is, companies in the financial services industry can 
make impressive strides towards a better future for the 
industry overall. Thank you.
    [The prepared statement of Ms. Sherbin can be found on page 
42 of the appendix.]
    Chairwoman Beatty. Thank you so very much. I thank all of 
the witnesses for their powerful testimony and also for the 
information that you provided for us. And now, I will recognize 
myself for 5 minutes for a series of questions. Let me start by 
saying that I like to be invited to the dance, and I certainly 
like to dance, so I thank you for that. I am so glad, Mr. 
Graves, that you talked about Dan Rooney, so I won't have to go 
through what I have here.
    His son visited me a couple of weeks ago, and he was so 
intrigued with my Beatty Rule, which was patterned after the 
Rooney Rule with the Federal Reserve, because what we found is 
that in a hundred-year history, there had not been a person of 
color, an African American, as one of the Presidents. And along 
with a lot of other things, the very qualified Raphael Bostic, 
in 2017, was made the President of the Federal Reserve out of 
Atlanta.
    But my question is based on what you talked about with the 
NFL and all of your successes. What would you say to your 
colleagues sitting here that we should do to make sure that we 
get more minorities and women and people from Appalachia and 
Veterans? How do we make this happen? If we don't have a Dan 
Rooney and a Joyce Beatty, let's say, how do we make that 
happen?
    Mr. Graves. Thank you. I believe at his core that all of 
the work and commitment, the great work that all of us do is 
only a part of what is required for sustainable success behind 
D&I. I believe that without an actual commitment by those who 
are making the decisions, that foundation is at least wobbly if 
not insecure. And what I found through my work with great 
owners like Ed McCaskey of the Chicago Bears and Bill Bidwill 
of the Arizona Cardinals is that diversity has to be 
intentional, and it has to be an effort and a commitment by 
those from the very top to make it happen.
    And so, with all of the preparation programs that are 
created, if you don't have a commitment by those who are making 
the decisions, then our chances for success are just that, 
chance.
    Chairwoman Beatty. Thank you. My time is running out, so I 
am going to ask a series of questions and ask everyone to 
respond to the same question. We are here with the ranking 
member and colleagues on both sides of the aisle, because at 
the end of our time here, we want to be able to say we made a 
difference. So, tell me, what would be the number one thing you 
would advise us to do as we are on this diversity and inclusion 
journey? We will start with you, Ms. Sherbin.
    Ms. Sherbin. The number one thing is measuring the leading 
indicators of inclusion and diversity, creating transparency 
around them, and holding ourselves and each other accountable 
for reaching them.
    Chairwoman Beatty. Thank you. Ms. Mota?
    Ms. Mota. What I would say to add to that is just being 
aware of our own individual biases and our own capabilities 
because I think the more that we are aware of ourselves and our 
organizations, the more familiar and aware we become of others, 
and helping that bridge of understanding.
    Chairwoman Beatty. Ms. Tulshyan?
    Ms. Tulshyan. I would really focus on the most 
underrepresented voices. Whose voice is really not being heard 
and go there and find out what are the institutional, and what 
are the barriers that are holding that person and those 
communities back and start from there.
    Chairwoman Beatty. Mr. Guinyard?
    Mr. Guinyard. I would say communication, being able to 
ensure that we are sharing our goals and what our destinations 
will be so that we are engaging everyone to participate in 
initiatives. The other piece is pushing it down into the 
organization so that everyone feels that they are accountable, 
and it is not just stratified at the top.
    Chairwoman Beatty. Mr. Graves?
    Mr. Graves. I would encourage you to focus on a grassroots 
program that grows diversity from the very bottom up through 
organizations.
    Chairwoman Beatty. Thank you. Let me just wrap up quickly, 
because I only have 5 seconds. What I also heard from all of 
you was pay equity access, adjusting the interview process, 
culture change, childcare, and equity in education. This was 
very helpful to us, and I want to again thank you for being 
here.
    Now, I recognize my friend, the ranking member of the 
subcommittee, Mrs. Wagner, for 5 minutes for questions.
    Mrs. Wagner. I thank the chairwoman, always. Let me start 
by asking unanimous consent that Ranking Member McHenry's 
remarks be entered into the record.
    Chairwoman Beatty. Without objection, it is so ordered.
    Mrs. Wagner. Thank you. According to Mercer's When Women 
Thrive report, women hold 26 percent of senior management 
positions and only 15 percent of executive positions in the 
finance industry. These figures have stayed relatively flat 
over the past decade, sadly. Dr. Sherbin, why are we not seeing 
more gains with respect to women and women of color in senior 
management positions in the financial services industry?
    Ms. Sherbin. The critical piece to understand is that while 
the industry has done a lot of initiatives and programming on 
this front, they have not changed core concentrations of where 
access to power is in these industries.
    They have not changed the work norms in the way work is 
done in the same way honestly that some other sectors have. 
Asking the very critical questions, do I need to travel? Do I 
need to spend long hours in the office? Must I truly be 
available 24/7? And should I come back 10 days after having a 
child? These are all very critical questions to ask in terms of 
how work is done, and then access to power in terms of 
relationships and how you can advance in your career.
    Mrs. Wagner. And you have been advising companies in this 
regard, is that correct?
    Ms. Sherbin. Absolutely.
    Mrs. Wagner. Great. I would like to submit for the record, 
Madam Chairwoman, the fifth annual women in the workplace study 
conducted by Lean In and McKinsey & Company.
    Chairwoman Beatty. Without objection, it is so ordered.
    Mrs. Wagner. This study comprises data from 329 companies. 
We have been talking about data, and Ms. Tulshyan, I 
appreciated your comments about data being delivered and driven 
by that--389 companies with a collective 13 million people on 
their payrolls and shows that while real progress has been made 
at the C-suite level, there is still much more progress to be 
made for women trying to grasp that first rung of the 
management ladder.
    The study found that three main areas where companies 
should focus their efforts to create a more inclusive office 
that reaps the economic benefits we know come with a diverse 
workforce, companies should focus on better understanding the 
corporate pipeline, focusing on the culture of work and we have 
talked a little bit about that, and turning commitment to 
diversity into real action. And some of you are on the front 
lines of doing that.
    Dr. Sherbin, your research has concluded that mandates do 
not work when trying to maintain a diverse workplace. 
Diversifying the workforce is only one piece of that puzzle. 
And the more crucial component to me is maintaining that 
diversity. Can you talk us through how companies can do that?
    Ms. Sherbin. Absolutely. Mandates, in the same way as 
recruitment, they get people in a chair. They get them in the 
seat. They don't ensure that their voice is heard, that they 
are valued, that they are able to contribute. In fact, you will 
find that most of the gains that we talked about in terms of 
financial gains and innovation gains from having diversity, a 
necessary condition is inclusion to ensure that people are able 
to contribute to their full potential. It also ensures that 
they will stay, and they will advance. Without inclusion, 
diversity becomes a revolving door.
    Mrs. Wagner. That is absolutely correct. And we have talked 
a lot on this committee about the differences between diversity 
and inclusion, about unconscious biases, about how we make a 
workforce culture that doesn't have that revolving door, and I 
am very concerned about those at the bottom rung and then being 
able to maintain as they try and move up the ladder. Ms. 
Tulshyan, do you have any comments in this regard, especially 
when it comes to the inclusion side of things?
    Ms. Tulshyan. Absolutely, and I actually want to take this 
wonderful definition of diversity being invited to the party, 
and inclusion being asked to dance. Verna Myers from Netflix 
coined that, and added that equity is very central to this, and 
equity is being part of the planning committee.
    Understanding what are some of the institutional historical 
barriers that have kept women and women of color out of these 
very highly coveted roles and really seeking to eliminate those 
barriers. And without that, we are not going to.
    Mrs. Wagner. You are absolutely correct. And I wish I had 
more time, but I do not. I will have to yield back, but I can 
say that we also had discussions about the Rooney Rule not just 
applying to the candidates but to those interviewing, and that 
is absolutely key, I think, to what we are trying to sustain 
here. I thank you all, and I yield back.
    Chairwoman Beatty. Thank you. The Chair now recognizes the 
gentlewoman from North Carolina, Ms. Adams for 5 minutes.
    Ms. Adams. Thank you, Madam Chairwoman, and let me thank 
all of you who are witnesses for being here today. We certainly 
appreciate you taking the time and sharing your testimony. As 
many of you have outlined, making an investment in diversity, 
inclusion, and equity is not only the right thing to do, the 
data show us that it makes good business sense. Companies and 
organizations function more effectively, and experience 
increased productivity and greater profitability.
    In order to effectively create a culture of inclusion it 
requires, as you said, intentionality and leadership. For far 
too long, leaders of corporations that pay lip service to the 
importance of diversity, and I am grateful that in this 
subcommittee, led by our most capable chairwoman, we are 
focused on identifying solutions and efforts that can will 
disrupt the status quo.
    When I first came to Congress, I was concerned about the 
lack of focus on Historically Black Colleges and Universities 
(HBCUs), so I launched the Congressional bipartisan HBCU 
Caucus. I am a two-time graduate. I spent 40 years on the 
campus of Bennett College at an HBCU in Greensboro. So, the 
Caucus is focused on raising national awareness, educating 
Members of Congress, and increasing Federal investments in 
HBCUs. And every year, these schools produce more than 40 
percent of Black engineers, healthcare professionals, and 
lawyers, just to name a few.
    When I meet with companies and financial institutions, I 
always tell them that if HBCUs are not a part of the industry's 
diversity and inclusion strategies, you are not doing it right. 
HBCUs are a critical pipeline of talent, and cultivating strong 
partnerships and relationships with the schools can provide 
industries with an opportunity to diversify their workplaces.
    I look forward to hearing more about the research and the 
work that can be done, but let me ask this question. To 
increase the diversity in law firms, and of course the legal 
profession, some firms have implemented the Mansfield Rule, 
where the firm considers in a new study at least 30 percent of 
women, racial ethnic minorities, and members of the LGBTQ+ 
community.
    Mr. Guinyard, your firm, Goodwin, is considered a leader 
when it comes to diversity. So, can you share whether the 
Mansfield Rule is working at Goodwin and other firms in 
increasing the diversity and leadership?
    Mr. Guinyard. Yes. At Goodwin, it has definitely had an 
impact. As I stated earlier, we have increased our 
representation on our most senior leadership committees to 35 
percent diversity. In addition to that, it has also elevated 
the visibility of focusing on ensuring that there are diverse 
slates. There is research that states that the more you 
increase the final slate of panelists for positions, you 
increase the likelihood of offering an opportunity or elevating 
someone to a position who has a certain kind of diversity, 
whether it is race, gender, ethnicity, or LGBTQ+.
    I wanted to go back to your earlier question around HBCUs. 
One initiative that we are partnering with as we talked about 
earlier is the Move the Needle Initiative. One of the things 
that we will be doing with these other firms and also these 
general counsels is exploring additional schools, law schools 
that often tend to get overlooked to find that top talent. We 
tend to kind of fish in the same ponds, the same talent, and so 
our approach is to really find diverse talent and to add in, 
create, or expand the pool in really exploring different 
universities where we can find racial and ethnic diversity.
    Ms. Adams. How does public disclosure help law firms and 
other organizations be accountable more for improving diversity 
and inclusion?
    Mr. Guinyard. First, the Mansfield Rule, in the first 
iteration of it, we had roughly 40 firms sign on, and it has 
increased to roughly 60 or 70 firms as a result of the 
recognition, of being certified. But public disclosure creates 
a level of accountability. And if you are familiar with law 
firms, we don't want to put numbers out there because we don't 
want to really have targets or quotas, or the assumption 
thereof.
    Ms. Adams. Okay. Let me move on if I can. I hate to disrupt 
you. I wanted to ask Ms. Tulshyan a question. What steps can we 
take to help industry shed their implicit and explicit biases?
    Ms. Tulshyan. Thank you.
    Ms. Adams. We have 24 seconds.
    Ms. Tulshyan. That's a loaded question for 24 seconds. 
Really quickly, it has to come from the education and personal 
awareness building around personal biases. And what we find is 
a lot of leaders, they operate from good intentions, they want 
to do the right thing, they want to engage more with women and 
people of color, they just don't sit down and think about how 
their actions are contributing to systemic bias. And fishing 
from the same pond, hiring people who look like them.
    Ms. Adams. Thank you very much, and I will probably send 
you some questions in writing for the record. Thank you very 
much. Thank you, Madam Chairwoman. I yield back.
    Chairwoman Beatty. Thank you. The Chair now recognizes the 
gentleman from Tennessee, Mr. Kustoff, for 5 minutes.
    Mr. Kustoff. Thank you, Madam Chairwoman, for convening 
today's hearing, and thanks to the witnesses for appearing this 
afternoon. Mr. Graves, if I could, you have had a long and 
distinguished career in the NFL, and you have talked about the 
importance of the Rooney Rule. Out of curiosity, does the NFL 
have a Rooney-type rule as it relates to ownership of the 
teams?
    Mr. Graves. Not that I am aware of, but I can check into 
it.
    Mr. Kustoff. It does seem like if the ownership were more 
reflective of the executives or vice versa, that in theory--I 
don't want to put you on the spot because you worked with the 
NFL--that could put some pressure on the NFL to further 
increase diversity among its coaching and executive ranks. Is 
that a fair statement?
    Mr. Graves. I would assume that it is fair.
    Mr. Kustoff. Dr. Sherbin, in the opening statements that 
were made by the witnesses, at least two of you talked about 
mentoring, and maybe also, a couple of you talked about 
networking. Can you talk about, as it relates to your study, 
the importance of networking and mentoring as it relates to 
growing diversity--which you have talked about in the financial 
services world, so I thought I would ask you whether it relates 
to financial services or other industries, if you could?
    Ms. Sherbin. Absolutely. Mentoring and networking, and in 
particular sponsorship, extends far beyond the financial 
services industry. It is very simply the way power is 
transferred in our society. You see these relationships 
everywhere. It is about seeing someone junior than you, 
believing in them, investing in their success, and putting them 
up for a promotion. As we all know, promotions happen in rooms 
that we are not privy to, so what we need is someone in that 
room to say our name, and that is a member of our network, 
ideally our sponsor.
    Mr. Kustoff. Is there a way to increase the mentoring and 
the networking? Are there ways?
    Ms. Sherbin. There are very key ways in which companies 
have made great strides. One is exposure and opportunity, and 
truly ensuring that leaders see talent not just that they would 
naturally see. Also, training and proactive education. To teach 
and coach not just leaders as potential sponsors, but also 
potential proteges.
    The right way to cultivate these relationships across 
differences. The fact of the matter is we live in a very 
segregated society and this means that we are often asking 
employees and companies to create relationships across 
differences when they have not done it in their personal lives. 
And we need to provide education so that they are successful.
    Mr. Kustoff. Thank you. If I could, Dr. Sherbin, there was 
a 2017 GAO study that found that overall representation and 
management in financial firms has slowly increased over the 
last decade. And if I could, as it relates specifically to 
financial firms, can you address the cultural changes to 
increase inclusion for both women and minorities?
    Ms. Sherbin. In order to really address inclusion for women 
and minorities, it is around reading of the bias, teaching 
individuals to work across differences, and holding individuals 
accountable for not just diversity but also inclusion, which I 
will tell you, while it is harder to measure than diversity, it 
is absolutely possible. Financial services industries can 
measure anything. I assure you that they can measure inclusion.
    Mr. Kustoff. And if I could, along those lines, can you 
compare how financial services firms are doing compared with 
other industries?
    Ms. Sherbin. In many other industries, they are ahead of 
financial services firms in terms of representation, and we 
have seen it in many, many reports and through many data 
sources.
    Mr. Kustoff. Thank you. I yield back the balance of my 
time.
    Chairwoman Beatty. Thank you. The Chair now recognizes the 
gentlewoman from Pennsylvania, Ms. Dean, for 5 minutes.
    Ms. Garcia of Texas. Madam Chairwoman, she stepped away.
    Chairwoman Beatty. Then, the Chair would like to recognize 
you, the gentlewoman from Texas, Ms. Garcia of Texas.
    Ms. Garcia of Texas. Thank you so much, and I am sure if 
she were here, she would have yielded to me anyway.
    Chairwoman Beatty. Yes.
    Ms. Garcia of Texas. Thank you. And thank you again, Madam 
Chairwoman, for putting this hearing together. I think you are 
absolutely right, you can have a seat at the table, but if you 
are not given a voice or are not part of the conversation, you 
may not really be there. And certainly, when I go to a dance, I 
sure do want to dance, but I would rather dance rock-and-roll 
than the waltz.
    So, what the dance is all about is important, too. And it 
takes commitment, doesn't it? Mr. Graves, I really liked what 
you said. No matter what we do, it comes from actual commitment 
to whatever program, or whatever initiative, or whatever plan 
we want to put in place. And it is something quite frankly that 
we cannot legislate, or can we? Do you have any ideas of what 
we should do to kind of ensure that some of these companies 
demonstrate actual commitment, whether it is through an 
incentive or a penalty or a bonus of some sort? Do you have any 
thoughts on that? What can we do to get a commitment from 
people?
    Mr. Graves. I think you are referring to a matter of the 
heart. I think with all the data that we have about the 
positive effects of diversity, I think it still comes down to 
individuals making a decision about what they believe is not 
only good for society but right. And I think you have to have 
more of those type of people at the table in the room where the 
decisions are made, and I think that is the first step to 
really changing our culture.
    Ms. Garcia of Texas. Okay. Dr. Sherbin, do you have any 
thoughts on that?
    Ms. Sherbin. I am going to offer something that might be a 
little counterintuitive. We spend a lot of time in these 
studies asking individuals who are not able to rise up in 
organizations why they believe they are not achieving the 
success that they need. We should also ask the majority 
individuals within companies what is not working for them in 
terms of including those who are different than themselves. 
Many industries will talk about the frozen middle or middle 
managers.
    These managers, traditionally for large companies, are the 
hardest portion of the organization to budge. They are the ones 
who have serious day-to-day pressures and don't always have the 
time to do something differently. And intervening with that 
group at that level to hear from them why they are not able to 
champion and support and do something different, as you have 
said, every day, and then addressing their challenges could be 
a very powerful step in truly changing behavior.
    Ms. Garcia of Texas. Ms. Mota, you mentioned engagement 
with affinity groups and groups other than themselves. Have you 
seen that work anywhere? Is there a lesson learned in something 
that you have seen, or wherever you have been exposed to 
companies with certain organizations, certain networks that 
then they can see the value of inclusion and diversity and has 
it changed behavior?
    Ms. Mota. Absolutely. I think it is also known as a best 
practice, and in terms of whether it is employee resource 
groups or business resource groups that are there. There is 
Latino, African American, Women, LGBTQ+, but one of the values 
with our partnership and working with those affinity groups is 
that it is bringing in an executive level, whether it is 
Latino, Latina, or executive-level women, executive-level 
African Americans, it is bringing visibility to those folks 
through those affinity networks that they may not see on a day-
to-day basis at their own companies.
    And there is a study done by the Center for Talent 
Innovation specifically on Latinos at work, and the study says 
that 76 percent of Latinos in corporate America repress some 
portion of their identity, they cover, and those who do repress 
are the ones who are being promoted because when they look at 
the executive presence, they do not see themselves reflected, 
and in part of the study and the research, it says that they 
feel they have to be someone else in order to get to those 
higher-level ranks within their organizations.
    And so, affinity groups provide that outlet not only to 
share the challenges but also to be able to connect with 
executive-level folks who represent the same affinity that they 
can aspire to and get advice from through those networks.
    Ms. Garcia of Texas. Okay. Thank you. And since I am sure 
Representative Dean yielded her time to me, can I have another 
5 minutes for myself?
    [laughter]
    Chairwoman Beatty. The Chair will give you another minute 
to ask another question.
    Ms. Garcia of Texas. I just want to quickly ask Mr. Graves, 
it is a simple yes or no, unless you feel like you have to 
elaborate, is your Mansfield Rule also possible to apply to 
making partner, because that is a tougher nut to crack?
    Mr. Graves. Yes.
    Ms. Garcia of Texas. It is? Very good. Thank you. I yield 
back.
    Chairwoman Beatty. Thank you. The Chair now recognizes the 
gentleman from Ohio, Mr. Gonzalez, for 5 minutes.
    Mr. Gonzalez of Ohio. Thank you, Madam Chairwoman, and 
thank you everybody for being here and for all the work that 
you do on this important issue, and for all the attention that 
you have taken with us here today. As I say most times I am in 
this subcommittee, I have been so proud of the work that we 
have done thus far shining a light on a very important area 
that is very difficult to solve. And I think we have made great 
strides in gathering information and best practices across 
different industries, not just the financial services sector, 
but I'm really excited to have you all here. Mr. Graves, I want 
to start with you.
    Like you, I come from the NFL. I was a player at one point, 
and I want to thank you for being here and sharing how the 
Rooney Rule has positively impacted your experience working in 
the NFL. The effect of the Rooney Rule discussed in your 
testimony is astounding, and I think it shows how effective the 
Rule has been in the NFL. I, for one, certainly have benefited 
from it.
    I played for Tony Dungy and Jim Caldwell, two African-
American coaches, and two people I consider to be incredible 
leaders, and whom I am just blessed to call friends, frankly. 
And as you may know, Chairwoman Beatty has a great bill similar 
to the Rooney Rule, H.R. 281, the Beatty Rule, which would 
require that in making the appointment of a bank president, the 
Federal Reserve Bank must interview at least one diverse 
candidate. I was glad to support this bill as a co-sponsor and 
vote in favor of the bill's final passage. I know that the NFL 
continues to tweak the Rooney Rule and kind of look for ways to 
make it more effective and better, and I was hoping you could 
maybe give us an update so we might be able to think through 
what--we just voted on it, but what might be next for us? Where 
is the NFL going in this regard?
    Mr. Graves. Thank you, Congressman. One thing I think it is 
imperative to point out is that our work in this area is 
evolutionary; it is not stagnant. And since the Rule was 
conceived and implemented back in 2003, I think it was, we have 
done things to enhance the Rule. Initially, it was a 
requirement to the teams to interview one minority or diverse 
candidate.
    Now, the Rule requires that you interview multiple 
candidates. We also asked owners or decision-makers to keep 
notes that can be requested by the commissioner. We also ask 
that the final decision-maker be involved throughout the 
process and not at intermittent points. These are the types of 
things that we are doing to ensure that the Rule becomes 
stronger and that we move toward the results that we are 
looking for.
    Mr. Gonzalez of Ohio. Some more documentation and then more 
candidates, generally.
    Mr. Graves. That is correct.
    Mr. Gonzalez of Ohio. Thank you. Ms. Mota, turning to you, 
connecting diverse talent pools to companies that would greatly 
benefit from more diversity can often be a challenge from what 
we hear. In your work at the Hispanic Alliance for Career 
Enhancement, you focus on talent acquisition and ensuring 
diverse individuals have access to programs that help to 
develop leadership skills, specifically. I think that makes a 
ton of sense, and I commend you for that. Can you discuss how 
these programs have helped to positively impact the young 
professionals you have worked with and the companies they have 
gone on to work for?
    Ms. Mota. Sir, absolutely. Many of the folks that we are 
working with are, like me, the first generation to obtain a 
college education in their families, and the first generation 
going into a professional workforce, and so with the various 
programs that we offer, we have been able to develop a strong 
multi-generational support network where folks more senior in 
their careers are able to mentor and really give advice to 
those who are starting off in their careers.
    Because many of us are the first ones going into this 
professional landscape and understanding what are the nuances, 
what are the things that you do, how do you build strategic 
networks, those strategic relationships. And so, having those 
through our programs' candid conversations have really 
catapulted the careers of individuals where they are going back 
a lot more confident, but also know that they have a place with 
our organization to ask those questions where perhaps may not 
feel as comfortable in their place of work.
    Mr. Gonzalez of Ohio. Awesome. Thank you for your answers, 
and for all that you have all been doing on this topic. And 
with that, I will yield back.
    Chairwoman Beatty. Thank you. The Chair now recognizes the 
gentleman from New Jersey, Mr. Gottheimer, for 5 minutes.
    Mr. Gottheimer. Thank you, Madam Chairwoman, and thank you 
to all the witnesses for being here today. According to a study 
conducted by the Institute for Women's Policy Research, moms, 
especially those with young children, are being left behind in 
the labor force in America. That is why I have co-sponsored 
several bills including the Healthy Families Act and the 
promoting Affordable Childcare for Everyone Act that would give 
greater flexibility to working families and help drive up the 
inclusion of all parents in the workforce.
    We want to make sure that all moms who want to work can 
work. Dr. Sherbin, what are some examples of flexible work 
arrangements that can help increase the retention and promotion 
of working mothers, in your opinion?
    Ms. Sherbin. Overall, in terms of flexible working 
programs, one thing that we always counsel is that they should 
be one-size-fits-one, not one-size-fits-all. The way that one 
working mother will choose to work is incredibly different from 
someone else and it is simply what works in their family. They 
might be the sole breadwinner. They might be the primary 
breadwinner. They may just be working to advance their personal 
mission. So, it would be one-size-fits-all.
    Another very critical success factor that we found working 
with a lot of companies across industries on this is that 
flexible work arrangements not be positioned as accommodations 
for working moms. This immediately reinforces the stereotypes 
that moms can't work as hard as their colleagues or their 
counterparts. I have four children, and I can assure you that I 
work very hard.
    But when flexible work arrangements are positioned as ways 
that we can all do our work more efficiently and effectively, 
it benefits not just moms, who arguably need them the most, but 
everyone at our companies to recognize our lives outside of 
work and the sustainability of the 35-year careers that we want 
our employees to have.
    Mr. Gottheimer. Thank you. I agree, and that is incredible. 
My wife is also a superhero and I don't know how she does it. 
She also works full time. It is just incredible. In my 
remaining time, I would like to talk about how we can create a 
larger slate of diverse candidates in top positions. As many of 
you know, the National Football League adopted the Rooney Rule, 
which requires League teams to interview minority candidates 
for head coaching and senior football operations positions, in 
order to address a lack of diversity among head coaches and 
executives.
    Mr. Graves, I noticed that you used to work as a general 
manager for the Arizona Cardinals, as we were just talking 
about, and as a lifelong New York Giants fans, I am sorry. I am 
proud to support a team that utilized the Rooney Rule when 
Jerry Reese was brought on as general manager, and led the 
Giants to two titles, as you probably remember. What data is 
there, Mr. Graves, available about the increase in the number 
of diverse executives and coaches at the NFL since the 
implementation of the Rooney Rule? Do you believe the Rooney 
Rule has been effective?
    Mr. Graves. Yes, I do. Since the implementation of the 
Rule--let me just say that prior to the implementation of the 
Rule, there were six ethnically diverse candidates who had 
served in the role of head coach, and since the implementation 
of the Rule, we have seen, I believe, 19, and a good number of 
those have had successful runs with Super Bowl representation, 
people like Tony Dungy and others who have been there.
    We have seen the Rule extend to successful general 
managers, just like you mentioned Jerry Reese, and I had the 
privilege of working with the Arizona Cardinals during the 2008 
Super Bowl during that time. So, it has been very successful in 
the terms of getting candidates to the table and being exposed. 
But obviously, we have work to do to sustain those numbers.
    We are not at those levels that we used to be and obviously 
we are working to get back to those levels and beyond. But I 
think the Rule is imperative to the sustained success that we 
would like to achieve.
    Mr. Gottheimer. Did you learn things you think other 
industries can follow?
    Mr. Graves. I am sure I have quite a bit to share with 
respect to the benefits of the Rule, and I would certainly 
extend conversations on that some other time.
    Mr. Gottheimer. I would love to spend time with you on 
that. Thank you so much. I only have a little time left, so I 
will yield back. I know Mr. Green has some questions.
    Chairwoman Beatty. Thank you. The Chair now recognizes the 
gentleman from Texas, Mr. Green, who is also the Chair of our 
Subcommittee on Oversight and Investigations, for 5 minutes.
    Mr. Green. Thank you, Madam Chairwoman. And I thank the 
witnesses for appearing, and I thank my colleague for the offer 
of time. How much of the lack of inclusivity is due to 
unconscious bias versus conscious bias?
    Ms. Tulshyan. I guess I will try to address that. 
Statistically, it is very hard to measure that because this is 
one of those things where I believe it will just be very hard 
to pull the data. I have been looking at academic research 
around affinity bias where essentially, it is not that you are 
trying to discriminate against a certain group, but you have a 
more favorable opinion of a group that you belong to so it 
could be by race, by gender, by education, by background, by 
favorite football team, etc.
    And so, a lot of the work I do with my clients is to 
identify how those affinity biases show up, especially because 
largely I think it is very hard to deny the research on why 
diversity and inclusion makes business sense. I meet a lot of 
people who really want to do the right thing, they just don't 
know how, and so I do think that there is a lot of this that is 
unconscious and people wanting to do the right thing just not 
knowing how to. I wish I could have a statistic for you.
    Mr. Green. Candidly speaking, I did not expect you to have 
statistical information. Dear friends, I have great 
appreciation for the Rooney Rule, and the Mansfield Rule, but I 
would like to visit with you very tersely about the money rule. 
Is there anything better than indexing the CEOs salary, 
bonuses, golden parachute, indexing it to money? You produce 
for me. I am not a Board Chair, I am speaking to the CEO. You 
produce for me a diverse workforce and I will double your 
salary.
    Is there anything that tops the love of money? The money 
rule? On prior occasions--thank you, your silence speaks 
volumes. I appreciate it. On prior occasions, we have visited 
this issue. This is not the first time, Madam Chairwoman, and I 
must compliment you on the subject matter, but on at least one 
other occasion, we had someone who explained that fixing 
bonuses and indexing pay raises engender success. I don't know 
how we can get to the point where we can require this, but it 
just seems that the will to do this is what is required at the 
top.
    In my office, we have diversity. The calls, I will it. I 
desired it. It must be and it happens. And by the way, 
everybody is capable, competent, and qualified. There is no 
shortage of women who are qualified, no shortage of people of 
color who are qualified, or LGBTQ+, just a shortage of people 
with the will to make it happen. I yield back the balance of my 
time.
    Chairwoman Beatty. Thank you very much. The Chair now 
recognizes the gentlewoman from Pennsylvania, Ms. Dean, for 5 
minutes.
    Ms. Dean. Forgive me, Chairwoman Beatty and subcommittee 
members, I did have to step out to a Financial Services 
Committee hearing, so I apologize for doing that zigzag. But I 
am pleased to be here with you, Madam Chairwoman. And thank you 
to all the witnesses for raising your voices on this important 
issue. I was so delighted to be appointed to this new standing 
subcommittee, and I took the chairwoman's command to heart. 
During the district work weeks in the summer time, we held 
roundtables on diversity and inclusion.
    We held three different ones, one on color, one on LGBTQ, 
and one on disability, and they were very enlightening from 
folks whether it is industry or government who thought that 
they were doing things in a diverse way. Sometimes, they look 
around, and to Mr. Green's point, just look around and say, 
``We are not being intentional at all.''
    We thought we were, but as I look around here, it is not 
happening. Some of the things, some of the takeaways that we 
found, whether it was business leaders, government leaders, 
advocacy groups, one of the most precious stories came from the 
superintendent of a local school district. He mentioned that 
when analyzing their hiring data, the district had a highly 
diverse initial slate of candidates that would dramatically dip 
after the first rounds of interviews.
    They are attracting a diverse base, and when they reviewed 
the data, what they realized was the reviewing panel itself was 
the problem, and some of you have spoken to this. The majority 
white panels tended to pick people who look like them. So, all 
of these diverse candidates, but many of them fell by the 
wayside through unintentional bias, I would suggest. Ms. Mota, 
you describe similar outcomes in your own personal work history 
in your testimony. Can you describe successful hiring practices 
that can limit unintentional biases?
    Ms. Mota. Yes. One would be with the selection committee. 
It is ensuring that there is a diverse representation on the 
hiring committee. There is research by McKinsey that talks 
about how leadership teams that are able to build more of an 
innovative organization and boost profits represent diversity 
from four core areas: country of origin; in terms of their 
industry background, as a point of diversity; as we discussed, 
gender; and being from a career pathway.
    They labeled these four in the McKinsey report as being the 
top key factors when having not only a diverse candidate pool, 
but also diverse in terms of a selection committee to be able 
to help eliminate some of the barriers or the biases that may 
occur. And then, of course, in addition to that is ensuring 
that there are several tools out there, and there are; there 
are implicit bias tools free online, various trainings and 
resources to be able to ensure that perhaps before the hiring 
takes place, each of the individuals have to be required to 
take that assessment.
    Ms. Dean. Anybody else want to add to that? And then, I 
wanted to shift to diversity by way of disability. And I am 
wondering if any of you can speak to that? We had a terrific 
roundtable about disability, and I guess the shocking thing is 
the high percentage of folks with various disabilities who are 
underemployed or unemployed. And I am struggling just trying to 
help constituents match up to employment and employers who are 
actively intentionally seeking to be inclusive in that way. Do 
you have any best practices in any of your organizations or you 
have come across in your own research?
    Ms. Sherbin. I was grateful enough to have the opportunity 
to partner with organizations that work on this front and 
conduct a piece of research. We found that there is not only 
significant underemployment of individuals with disabilities, 
but also a significant portion of the workforce who does 
currently have a disability. It may be an invisible disability. 
They do not feel comfortable disclosing it, and as a result 
they do not have the accommodations they need to truly be 
successful.
    We often talk about women and people of color working 2 or 
4 times harder than their peers. These are individuals working 
30 times harder than their peers. They are not disclosing that 
they cannot hear in meetings or see properly to read slides or 
to read that, and they are not able to ask for accommodations.
    And companies by proactively soliciting information, 
signaling inclusion around this front, and addressing 
accommodations in a very respectful way, have made a lot of 
strides.
    Ms. Dean. That is really terrific, and maybe you would 
share that research product with our committee?
    Ms. Sherbin. I would be delighted to.
    Ms. Dean. That's very valuable. Thank you very much. Thank 
you, Madam Chairwoman. I yield back.
    Chairwoman Beatty. Thank you. I was going to give you 
another 30 seconds since your colleague probably did not tell 
you that she asked for some of your time.
    [laughter]
    But the Chair now recognizes the gentlewoman from 
Massachusetts, Ms. Pressley, for 5 minutes.
    Ms. Pressley. I am an only child. I do not share anything. 
I am kidding.
    Thank you, Chairwoman Beatty, and I want to thank 
Chairwoman Waters for her good wisdom and leadership in 
creating this standing subcommittee in the first place, which 
provides us the forum to address these critical issues.
    I am wearing two hats here. One is as a proud member 
appointed to this pioneering subcommittee, but I am also the 
Vice Chair of the newly re-launched Task Force on Aging and 
Families. I know we were speaking about those efforts critical 
to retaining a younger workforce like providing childcare, and 
that is important.
    Ageism certainly exists on both sides, but there is a 
growing trend of discrimination and barriers to employment for 
our aging workforce. You know, thank God, due to medical 
advances, we are living longer, but people are also working 
longer, and not just doing that for enrichment; they are doing 
it because they have to. Many older Americans are living below 
the poverty line.
    And in fact, since 2011, 10,000 people in the United States 
have turned 65-years-old every day, a trend that will continue 
through 2030. In 2012, only 12.5 percent of those over 65 were 
working. In 2016, this share jumped to nearly 20 percent. And 
these projections are expected to continue to grow.
    So, I wonder if you could offer when it comes to our aging 
population both living and working longer than ever before, 
when we talk about diversity and inclusion in the workforce, 
what can we do to make sure that we are not forgetting our 
seniors?
    Dr. Sherbin, companies often provide incentives and 
competitive benefits packages to recruit and retain younger 
employees. What are some of the incentives you think could 
attract and retain members of our aging community who have life 
experience and great wisdom and skills to offer?
    Ms. Sherbin. Indeed, it is the ability to capitalize on 
that wisdom and skill. In research that I have done, when you 
ask individuals who are relatively young in their career, at 
just the age of 50, a considerable number of them will say that 
they don't believe they have any more trajectory to advance in 
their career. And it is an incredibly disengaging moment to 
think there is nowhere more senior that I can rise because I am 
seen as too old in my position. So, it truly is halfway to the 
top at all ages. That is incredibly critical to keeping this 
talent cohort.
    This talent cohort also intersects with the last 
conversation that we had. They are living much, much longer, 
but they are also more likely to be working with a disability. 
And figuring out the right accommodations to ensure that they 
can do their jobs in the extraordinary ways that they can 
deliver is a very critical piece of ensuring that they can 
deliver.
    Ms. Pressley. Would anyone else like to contribute to that 
before I move on?
    Ms. Tulshyan. Really quickly, I just want to say that there 
is incredible research to show that intersection between, 
accommodations and policies that would work really well for 
working moms like flexible work arrangements, paid family, and 
family leave, not just as soon as you give birth, etc. and 
there is a really good now, I think, intersection that show 
that it works for anybody. Millennials want a workforce where 
they can avail themselves of parental leave, for example. The 
aging population would certainly benefit from having paid time 
off to ensure that they are able to take care of their health.
    So, we really see a win-win across various sectors, and I 
think that is very key in trying to address this.
    Ms. Pressley. Thank you. You actually read my mind. You 
answered my next question, which had been around examples of 
flexible work arrangements that could support our aging 
workforce. I thank you for getting ahead of me on that one. The 
Age Discrimination in Employment Act of 1967 protects 
applicants and employees ages 40 and older from discrimination 
on the basis of age in hiring, promotion, discharge, and 
compensation.
    What are some additional protections we should be 
considering to better protect our aging population from 
discrimination in the workforce? Any thoughts? I know this is 
not the subject matter, but there is an intersectionality in 
these issues.
    Ms. Sherbin. I can add something, if you would like. Not 
just the protection but also increased avenues for reporting, 
and reporting in very safe ways. I have done a lot of work 
around sexual harassment and areas of explicit bias, and these 
are incredibly underreported. All issues of discrimination are 
incredibly underreported and as a result are not addressed.
    Ms. Pressley. And I love the accountability point, that 
what gets measured, gets done. So, thank you. Thank you, Madam 
Chairwoman.
    Chairwoman Beatty. Thank you. I would like to ask unanimous 
consent to add the following articles and reports to the 
record: Women in the Workplace 2019 by McKinsey & Company, Wall 
Street Journal, Where Women Fall Behind At Work, the First Step 
Into Management, and the Women of Color Invisible, Excluded, 
and Constantly On guard. I would also like to submit an article 
by Sheryl Sandberg and Rachel Thomas entitled, ``The Gender Gap 
Just Isn't Fair, It Is Bad for Business.'' And lastly, I would 
like to enter into the record, ``Women in the Workplace, the 
First Step is the Steepest.'' Without objection, it is so 
ordered.
    I would like to thank all of our witnesses for their 
testimony today and for giving us so much of your time.
    The Chair notes that some Members may have additional 
questions for this panel, which they may wish to submit in 
writing. Without objection, the hearing record will remain open 
for 5 legislative days for Members to submit written questions 
to these witnesses and to place their responses in the record. 
Also, without objection, Members will have 5 legislative days 
to submit extraneous materials to the Chair for inclusion in 
the record.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
